                         '9

    <
                 1                                              NATIONAL SCIENCE FOUNDATION
                                                                         4201 Wilson Boulevard                             I
    ,&
        L!,      .                                                     ARLINGTON, VIRGINIA 22230
            r,
                                                                   1
E                                                                  I
                                                                   I                                                           r
-       3                                                           1

                                                                    I
                                     OFFICE OF                         1
                                 INSPECTORGENERAL

                              MEMORANDUM
                                                                       I
                                                                                                                  /
                                                                       i                                              *-




                              Date:            IIEC 2 E 2008        I'                   .       ,                                         .   *

                                                                       I
        2            .




                                                                                                                                   I

 ..
        2        .
                              To:            Mary F. Santonastasso, Directar
,.  -
I


                                             Division of Institution and Award S

                              Thru:          Jannifer Jenkins                                                              ,
                                                                                                                           i                       - ,
I                                            Senior Audit Ma
I
                                                                                                                                                     I
i
                              From:          Arnie Garza                                                                               ,
I                                            Audit Manager
1
I                                                                                            8           "
I
                              Subject:       Audit Report No. OIG-09- 1-002          .       t   h

                                             American Institute of Physics
                                                                           i.   ,'               .>
                                                                           I                     .           .1



                                                                           t                         I
                              Attached is the final audit report, prepared by Foxx & Company, -an independent publ{c accounting
                              firm, on the audit of NSF Grant Agreement No. ESI-0307862 awarded to American Institute of
                              Physics (AIP). The audit covers NSF-funded costs claimed fiom October 1, 2003 to December 3 1,
                              2006 aggregating to $2,348,603 of NSF direct funded costs and $234,859 of cost sharing.

                              Except for the $77,658 in questioned subcontract costs, the auditors determined that the costs
                              claimed by AIP appear fairly stated and are allowable, allocable, and reasonable for the NSF award.
                              The $77,658 in questioned costs consist of( -) and1              Dfor the Ivanhoe Broadcast News,
                              Inc. and NewsProNet, Inc. subcontracts respectively. Ivanhoe billed and received payment fiom
                              AIP for Spanish speaking Discoveries and Breakthroughs Inside Science: Science TV News That
                         .    Matters (DBIS) episodes that had not been delivered at the time of the audit. NewsProNet did not
                              pay AIP for program income that was part of a final settlement with NewsProNet, Inc.

                              The audit also found three instances of non-compliance with grant terms and conditions and federal
                              requirements. The first two non-compliances were also significant internal control deficiencies that
                              contributed to the subcontractor questioned costs and the relatea program income that was not paid
                              to AIP. Specifically:

                                      The audit found that AIP's procurement practices for awarding subcontracts were not in
                                      accordance with federal requirements. AIP did not obtain adequate cost and pricing data for
                                      contracts over $100,000. Further, AIP awarded subcontracts that had vague terms and did
                                      not include all the federally required contract clauses. .         -            *-
       AIP did not have adequate procedures to monitor its subcontr~fctoractivities in a timely
       manner. There were no policies or intern1 controls inplace to ensure that invoiced amounts
       were accurate, allocable, alEowable, and adeqmteljr supported with dochentation, in
       accordance with NSF and OR43 grant requirements.

       The award rni1e:stones for subscriptian sales in AIP's award agreement with NSF (both the
       originaI and the revised) were not being met; thus ikreasing the possibility {hat the DBIS
       project would not become self-sustaining as originally proposed by the end of the NSF
       award period.

To address these compliance deficiencies, the auditors r w m m d that your office dir~ctALP to (1)
establish and implement procurement contract pzacdwes to obtain .and evaluate coq and pricing
data; specify the type of contract and Eum ~ontraGtceilings; and include all required captract clauses
in all subcontracts over $100,000, (2) establish snd implmmt an actqua& m b n 4 t monitoring
program to ensure that the subcoqtractors comply with the suhoatmt provisjons and the
accumulation of program income; and (3) work with i$sw b ~ t a a c t o ta
                                                                       c find addition& subscribing
TV stations for the D B I project and seek ltdditiod h & n g sources to fund the D B I ~project after
the NSF award is completed.

AIP's response stated that it did obtain pricing information before it awarded the NPN subcontract;
it had a subcontractor monitoring ~ l a n ;and it met all of its milestmes, except the one for
subscription sales.

Please coordinate with our o e c e d+g the six-month resolution period, as specified by OM3
Circular A-50, to develop a mutually a p & l e r;esolu#ioaof the audit Wings. Also; the findings
should not be cbsed until NSF de$emiPles that a11 recommmdatiens have been adequately
addressed and the proposed corrective actiotls bave been satisfactoriiy implemented.

We are providing a copy of this m e r h o r d m to the Division Director and P m v Dinctor in
Education and Human Raowoes [EHa) d.                  the P ~ X %ofOthe
                                                                      T Bivisiem of G m t s and
A p m e n t s . The responsibility for audit resoEutim rests      D ~ $ G $iif Mitutic#n and Award
Support,. Cost Analysis and Audit Resolution B m ~ [C    h     . AOCO&&~,we ask that no action
be taken wncerning the report's itindhp without &st w~&tingCAAR 703-292-82k4.


OIG Oversight of Audit

To fulfill our responsibifities under G o v m a t Auditing SWw&?the Office of Inspector General:

   *   Reviewed Foxx & Company%appraaeh and plaming of the audit;

       Evaluated the qualifications and hidependence of the auditors;

       Monitored the progress of the audit at key points;
Coordinated periodic meetings with Foxx & Company and NSF officials, as necessary, to
discuss audit progress, findings, and recommendations;

Reviewed the audit report, prepared by Foxx & Company to ensure compliance with
Government Auditing Standards and the NSF Audit Guide; and

Coordinated issuance of the audit report.
Interim Audit of Award No. ESI-0307862
            Awarded by the
   National Science Foundation to the
      American Institute of Physics
        College Park, Maryland

           FINANCIAL AUDIT OF
       FINANCIAL SCHEDULES AND
    INDEPENDENT AUDITORS’ REPORTS
             FOR THE PERIOD
      October 1, 2003 –December 31, 2006




                                     Foxx & Company
                                     700 Goodall Complex
                                     324 West Ninth Street
                                     Cincinnati, Ohio 45202-1908
This Page Intentionally Left Blank
                                      AMERICAN INSTITUE OF PHYSICS

                                                 TABLE OF CONTENTS

                                                                                                                                    PAGE
Executive Summary

        Background ..................................................................................................................... 1

        Audit Objectives, Scope, and Methodology ................................................................... 2

        Summary of Audit Results.............................................................................................. 3

        Follow-Up of Prior Audit Findings................................................................................. 5

        Exit Conference .............................................................................................................. 6

Audit Findings and Recommendations

        Independent Auditors’ Report on Financial Schedules .................................................. 7

        Independent Auditors’ Report on Internal Control Over Financial Reporting and on
        Compliance and Other Matters Based on an Audit of Financial Schedules Performed
         in Accordance with Government Auditing Standards .............................................. 9

        Inadequate Procurement Practices for Awarding Subcontracts.................................... 11

        Inadequate Subcontract Monitoring ............................................................................. 15

        AIP Not Meeting Established Award Milestones ........................................................ 18

Financial Schedules and Supplemental Information

        Schedule A-1 Schedule of Award Costs - (ESI-0307862)............................................ 20

        Schedule B-1 Schedule of Questioned Costs – (ESI-0307862) ................................... 21

        Schedule C-1 Summary Schedules of Awards Audited and Audit Results.................. 22

        Notes to the Financial Schedules ................................................................................. 23

Attachment A – Awardee’s Comments to Report .............................................................. 25
EXECUTIVE SUMMARY
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to the American Institute
of Physics (AIP), College Park, MD under Grant No. ESI-0307862 for the period October 1,
2003 through December 31, 2006. AIP, as an NSF awardee, is governed by the cost principles
specified by Office of Management and Budget (OMB) Circular A-122, Cost Principles for Non
Profit Organizations. Additionally, AIP is required to follow the provisions for administrative
requirements contained in OMB Circular A-110, Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations. (OMB Circular A-110 has been incorporated into 2 CFR 215).

AIP is an educational and scientific nonprofit organization chartered to advance and diffuse the
knowledge of physics and its application to human welfare. NSF granted AIP Award No. ESI-
0307862 for $2,348,603 on September 9, 2003, with an effective date of October 1, 2003. The
award included a $234,859 cost share requirement and is scheduled to expire on September 30,
2008. AIP claimed $2,034,850 in NSF funding and $222,807 in cost sharing as of December 31,
2006. The award is approximately a five-year continuing grant approved on scientific/technical
merit.

The purpose of the award is to support eight goals of the DBIS project and to evaluate the
effectiveness of STEM news in local TV news programming in increasing the viewers’
awareness and appreciation of the role of STEM in society. Discoveries and Breakthroughs
Inside Science: Science TV News That Matters (DBIS) brings together a diverse coalition of
professional science, technology, engineering, and mathematical (STEM) organizations to
provide peer-reviewed research news to large audiences who use local TV news as their primary
source of information. The project provides twelve 90-second science news reports and a
complementary Web component each month to subscribers. DBIS exposes the public to the role
of STEM in society; and, promotes the awareness of, appreciation for, accessibility to, and
understanding of these fields. One of the eight goals of the DBIS project was to develop a model
that would be self-sustaining beyond the NSF funding. In that regard one of the award’s three
measurable milestones was the amount of revenue generated from non NSF and AIP sources.
The other two milestones were the number of STEM partners and the number subscribing
stations. According to the AIP grant application the basic costs of DBIS would be covered when
165 TV stations paid an average of $600 per month. The grant application and award suggested
that projected revenue would result in self-sufficiency by the end of Year Four.

According to the DBIS’ annual report, 144 DBIS episodes were produced between May 2005
and April 2006. Also, the 2006 annual report stated that the DBIS team produced Spanish DBIS
episodes and a web page for each story which expanded on the science content in the reports.
Based on information provided by AIP there were an additional 108 episodes produced through
December 31, 2006.



                                               1
AIP, in addition to their staff, engaged three subcontractors to provide services related to the
production, marketing, evaluation, and monitoring of 90-second science news stories aired on
local TV stations:

          ¾    NewsProNet, Inc. (NPN) located in Gainesville, GA provided
               production, marketing, and distribution services from October 2003
               until March 2005.

          ¾    Ivanhoe Broadcast News, Inc. (Ivanhoe) located in Winter Park, FL
               provided production, marketing, and distribution services beginning in
               March 2005 and ending April 30, 2006. The agreement was to renew
               automatically for one year terms.

          ¾    The University of Minnesota, St. Paul, MN provided evaluations of
               each science news story beginning in October 2003. The contract
               included a timeline for different phases of the project with due dates.
               However, the agreement did not contain a specific end date.


In June of 2005, AIP terminated the NewsProNet subcontract because of organizational changes
at NPN that affected the subcontract performance. At this time a new organization emerged,
NewsProNet Interactive, LLC (NPNI). AIP sued both NPN and NPNI in Prince Georges County
Circuit Court, Maryland. Among other things NPNI agreed to pay $xxxxx in net unpaid
program income from TV subscription revenues owed to AIP at the rate of $ xxxxx per month.
AIP subsequently awarded a contract to Ivanhoe Broadcasting in June 2005, with a retroactive
performance period going back to March 2005 to continue the work previously performed by
NPN.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to:

   1. Determine whether AIP’s Schedule of Award Costs (Schedules A-1) presents fairly, in all
      material respects, the costs claimed on the Federal Cash Transactions Reports (FCTRs),
      and whether the costs claimed including cost sharing by AIP are in conformity with the
      Federal and NSF award requirements.

   2. Identify matters concerning instances of noncompliance with laws, regulations, and the
      provisions of the award agreements pertaining to the NSF awards and weaknesses in
      AIP’s internal control over financial reporting that could have a direct and material effect
      on the Schedule of Award Costs (Schedule A-1) and AIP’s ability to properly administer,
      account for, and monitor the NSF award.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards (2003 Revision), issued by the Comptroller General of the United States; and the


                                               2
guidance provided in the National Science Foundation Audit Guide (December 2004), as
applicable. These standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the amounts claimed to
NSF as presented in the Schedule of Award Costs (Schedule A-1) are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedule of Award Costs. An audit also includes assessing the accounting
principles used and the significant estimates made by AIP, as well as evaluating the overall
financial schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.

SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF, as well
as cost sharing provided by AIP for the NSF award. These costs and the results of our audit are
shown in the Schedule of Award Costs (Schedule A-1) and are summarized as follows:

                                  Funding                     Claimed      Questioned
                 Award No.         Source         Budget       Costs         Costs

             ESI-0307862         NSF-Funded      $2,348,603   $2,034,850      $77,658
                                 Cost Sharing      $234,859     $222,807            -
                                 Total Project   $2,583,462   $2,257,657      $77,658

Except for the $77,658 in questioned subcontract costs, we determined that the costs claimed by
AIP appear fairly stated and are allowable, allocable, and reasonable for the NSF award. The
$77,658 in questioned subcontract costs included $ xxxxx under the Ivanhoe Broadcast News,
Inc. subcontract award because of billings to AIP for Spanish speaking DBIS episodes it had not
delivered at the time of our audit. We also questioned $ xxxxx of program income that was not
paid to AIP as part of a final settlement with NewsProNet, Inc. (Note that AIP expended costs in
addition to the claimed costs on this project. See Note B-3 on the Schedule of Questioned Costs
in Schedule B-1 for a detailed explanation of these costs).

Our audit found three instances of non compliance with grant terms and conditions and federal
requirements; the first two were also significant internal control deficiencies that contributed to
the questioned subcontractor costs, and the grant related income that was not paid to AIP.
Specifically:

   •   AIP’s procurement practices for awarding subcontracts were not in accordance with
       federal requirements. We found that AIP (a) did not obtain adequate cost and pricing data
       for contracts over $100,000 and (b) awarded subcontracts that had vague terms. For
       example, in some instances the type of contract or the firm dollar ceiling price was not
       identified. In addition, some contracts did not include all the federally required contract
       clauses, such as provisions for termination, access to records, and records retention. This
       occurred because AIP did not have adequate policies and procedures that required that it
       comply with federal procurement requirements. As a result, there was no assurance that
       the subcontract costs were reasonable or that AIP had enforceable terms in its
       subcontracts.


                                                 3
   •   AIP did not have adequate procedures to monitor its subcontractor activities in a timely
       manner. AIP claimed subaward costs of $798,525 which represented 39 percent of the
       total costs claimed through December 31, 2006. However, there were no policies or
       internal controls in place to ensure that invoiced amounts were accurate, allocable,
       allowable, and adequately supported with documentation, in accordance with NSF and
       OMB grant requirements. AIP’s failure to adequately monitor and review subcontractor’s
       costs in a timely manner reduced AIP’s ability to (1) efficiently and effectively manage
       and monitor NSF-funded expenditures, (2) determine proper payment of program
       income, and (3) adequately monitor the activities of its subcontractors. This resulted in
       invoices for $ xxxxx being paid by AIP for services and deliverables that were not
       provided and $ xxxxx in program income that was due to AIP but not paid.

   •   The award milestones for subscription sales in AIP’s award agreement with NSF (both
       the original and the revised) were not being met; thus increasing the possibility that the
       DBIS project would not become self-sustaining as originally proposed by the end of the
       NSF award period. Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxs
       ssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
       ssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
       ssssssssssssssssssssssssssssssssssss As a result, there is a high risk that the DBIS
       program may not be able to continue beyond the NSF grant award period without a
       considerable amount of financial support by AIP and its contributing partners.

We recommend that the NSF Director for the Division of Institution and Award Support (DIAS)
ensure that AIP, for current and future NSF awards:

   a. Establish and implement procurement contract procedures to obtain and evaluate
      adequate cost and pricing data; specify the type of contract and firm contract ceilings; and
      include all required contract clauses in all subcontracts over $100,000;

   b. Establish and implement an adequate subcontract monitoring program to ensure that the
      subcontractors comply with the subcontract provisions and the accumulation of program
      income; and

   c. Work with Ivanhoe to find additional subscribing TV stations for the DBIS project and
      seek additional funding sources to fund the DBIS project after the NSF award is
      completed.


AIP’s response stated that it did obtain pricing information before it awarded the NPN
subcontract; it had a subcontractor monitoring plan; and it met all of its milestones, except the
one for subscription sales. AIP provided its response embedded within the draft audit report and
included Appendices A through T. Because these materials are voluminous, they are contained
in a separate volume of this report and are available upon request from the NSF OIG. The
auditor summarized AIP’s response after each finding in the audit report and included an overall
summary in Attachment A.


                                                4
The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and corrective actions have been satisfactorily
implemented.

For a complete discussion of the audit findings, refer to the Independent Auditors’ Report on
Internal Control Over Financial Reporting and on Compliance and Other Matters Based on an
Audit of Financial Schedules Performed in Accordance with Government Auditing Standards.

FOLLOW-UP OF PRIOR AUDIT FINDINGS
      xxxxxxxxxxxxxxxxxxxxxxxxssssssssssssssssssssssssssssssxxxxxxxxxxxxxxxxxxxxxxxxs                 Formatted: Bullets and Numbering

      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssXxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
      xssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssxxxxxs
      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      ssssssssssssssssssssssssssssssssssXxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
      xxxxxxxssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssXxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
      xxxxxxsssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss
      sssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssssss




                                                5
EXIT CONFERENCE

We conducted an on-site exit conference on April 27, 2007, at AIP. We discussed the findings,
as well as other observations contained in this report with those attending:

Representing AIP was:

              Name                        Title
              Xxxxxxxxxxxxxxxxxx          Xxxxxxxxxxxxxxxxxx
              Xxxxxxxxxxxxxxxxxx          Xxxxxxxxxxxxxxxxxx
              Xxxxxxxxxxxxxxxxxx          Xxxxxxxxxxxxxxxxxx
              Xxxxxxxxxxxxxxxxxx          Xxxxxxxxxxxxxxxxxx
              Xxxxxxxxxxxxxxxxxx          Xxxxxxxxxxxxxxxxxx
              Xxxxxxxxxxxxxxxxxx          Xxxxxxxxxxxxxxxxxx


Representing Foxx & Company was:

              Name                        Title
              Xxxxxxxxxxxxxxxxxx          Xxxxxxxxxxxxxxxxxx
              Xxxxxxxxxxxxxxxxxx          Xxxxxxxxxxxxxxxxxx




                                             6
AUDIT FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


         INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES


We have audited the costs claimed by the American Institute of Physics (AIP) to the National
Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) for the NSF award
listed below. In addition, we audited the amount of cost sharing claimed for the award. The
FCTRs, as presented in the Schedule of Award Costs (Schedule A-1), are the responsibility of
AIP’s management. Our responsibility is to express an opinion on the Schedule of Award Costs
(Schedule A-1) based on our audit.

            Award Number              Award Period               Audit Period
            ESI-0307862           10/01/2003 to 09/30/08     10/01/2003 to 12/31/06


We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in the Government
Auditing Standards (2003 revision), issued by the Comptroller General of the United States; and
the guidance provided in the National Science Foundation Office of Inspector General Audit
Guide (December 2004), as applicable. These standards and the National Science Foundation
Office of Inspector General Audit Guide require that we plan and perform the audit to obtain
reasonable assurance that the amounts claimed to NSF as presented in the Schedule of Award
Costs (Schedule A-1) are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the Schedule of Award Costs
(Schedule A-1). An audit also includes assessing the accounting principles used and significant
estimates made by AIP’s management, as well as evaluating the overall financial schedule
presentation. We believe that our audit provides a reasonable basis for our opinion.

The Schedule of Questioned Costs (Schedule B) explains the $77,658 (xxxx) of total claimed
NSF funded costs that we have questioned for allowability under the award agreement. These
questioned costs include $25,000 for xxxSpanish speaking DBIS episodes billed by IBN but not
completed or delivered by IBN to AIP and $ xxx xx of grant related income that was not paid by
NPN to AIP. However, NSF should consider the over expenditure of funds on this project by
AIP when considering the action to be taken on the questioned cost. (See Note B-3 on the
Schedule of Questioned Costs for a detailed explanation of these costs).


                                              7
Questioned costs are (1) costs for which documentation exists to show that the recorded costs
were expended in violation of the laws, regulations or specific conditions of the award, (2) costs
that require additional support by the awardee, or (3) costs that require interpretation of
allowability by NSF’s Division of Institution and Award Support (DIAS). NSF will make the
final determination regarding whether such costs are allowable. The ultimate outcome of this
determination cannot presently be determined. Accordingly, no adjustment has been made to
costs claimed for any potential disallowance by NSF.

In our opinion, except for $77,658 of questioned NSF-funded costs, the Schedule of Award
Costs (Schedule A-1) presents fairly, in all material respects, the costs claimed on the FCTRs for
the period October 1, 2003, to December 31, 2006, in conformity with the provisions of the NSF
OIG Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF award, federal
requirements, and on the basis of accounting described in the Notes to the Financial Schedule,
which is a comprehensive basis of accounting other than generally accepted accounting
principles. This schedule is not intended to be a complete presentation of financial position of
AIP in conformity with accounting principles generally accepted in the United States of
America.

In accordance with Government Auditing Standards and the guidance provided in the National
Science Foundation Office of Inspector General Audit Guide, we have also issued a report dated
April 27, 2007 on our tests of AIP’s internal control over financial reporting and on compliance
and other matters. The purpose of that report is to describe the scope of our testing over internal
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. That report is an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of the AIP’s management, NSF, AIP’s
cognizant Federal audit agency, the Office of Management and Budget, and the Congress of the
United States, and is not intended to be and should not be used by anyone other than these
specified parties.


Foxx & Company



Cincinnati, Ohio
April 21, 2008




                                                8
INTERNAL CONTROLS AND COMPLIANCE
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                INDEPENDENT AUDITORS’ REPORT ON
 INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE
   AND OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES
 PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS


We have audited the costs claimed as presented in the Schedule of Award Costs (Schedule A-1),
which summarizes the financial reports submitted by the American Institute of Physics (AIP) to
the National Science Foundation (NSF) and claimed cost sharing for the award listed below and
have issued our report thereon dated April 21, 2008.

              Award Number            Award Period               Audit Period
              ESI-0307862          10/01/2003 to 9/30/08      10/01/03 to 12/31/06

We conducted our audit of the Schedule of Award Costs as presented in Schedule A-1 in
accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in the Government Auditing Standards (2003
revision), issued by the Comptroller General of the United States; and the guidance provided in
the National Science Foundation Office of Inspector General Audit Guide (December 2004), as
applicable.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedule of Award Costs (Schedule A-1) for the
period October 1, 2003, to December 31, 2006, we considered AIP’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of expressing
our opinion on the financial schedule, but not for the purpose of expressing an opinion on the
effectiveness of AIP’s internal control over financial reporting. Accordingly, we do not express
an opinion on the effectiveness of AIP’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider to be significant deficiencies.


                                                9
A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of AIP’s financial
schedule that is more than inconsequential will not be prevented or detected by AIP’s internal
control. We consider the deficiencies described below as Finding Nos. 1 and 2, to be significant
deficiencies in internal control over financial reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial schedules
will not be prevented or detected by AIP’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in the internal control that might be significant deficiencies and, accordingly, would not
necessarily disclose all significant deficiencies that are also considered to be material
weaknesses. However, we believe that none of the significant deficiencies described below are a
material weakness.

COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether AIP’s financial schedule is free of
material misstatement, we performed tests of AIP’s compliance with certain provisions of
applicable laws, regulations, and NSF award terms and conditions, noncompliance with which
could have a direct and material effect on the determination of financial schedule amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests of compliance
disclosed three instances of noncompliance that are required to be reported under Government
Auditing Standards and the National Science Foundation Office Of Inspector General Audit
Guide and are described in Finding Nos. 1 through 3 below.

AIP provided its response embedded within the draft audit report and included Appendices A
through T. Because these materials are voluminous, they are contained in a separate volume of
this report and are available upon request from the NSF OIG. The auditor summarized AIP’s
response after each finding in the audit report and included an overall summary in Attachment A.
We did not audit AIP’s response, and, accordingly, we express no opinion on it.




                                                10
FINDINGS AND RECOMMENDATIONS

Finding No. 1 - Inadequate Procurement Practices for Awarding Subcontracts

AIP’s procurement practices for awarding subcontracts were not in accordance with federal
requirements. We found that AIP (a) did not obtain adequate cost and pricing data for contracts
over $100,000 and (b) awarded subcontracts that had vague terms. For example, in some
instances the type of contract or the firm dollar ceiling price was not identified. In addition,
some contracts did not include all the federally required contract clauses such as provisions for
termination, access to records, and records retention. This occurred because AIP did not have
adequate policies and procedures that required that it comply with federal procurement
requirements. As a result, there was no assurance that the subcontract costs were reasonable or
that AIP had enforceable terms in its subcontracts.

       (a)    Lack of Cost and Pricing Data

       AIP negotiated three separate sole source subcontracts with three subcontractors under
       the NSF award for amounts greater than $100,000 without evidence of performing a cost
       or price analysis before awarding the subcontracts. Adequate documentation was not
       available to indicate how AIP determined that the subcontract amounts were reasonable.
       As a result, there was no assurance that AIP received the best price for the services
       procured.

       According to OMB Circular A-110, Paragraph 45 (OMB Circular A-110 has been
       incorporated into 2 CFR 215) some form of cost or price analysis should be made for all
       procurement actions… Cost Analysis is the review and evaluation of each element of cost
       to determine reasonableness, allocability and allowability. Paragraph 46 states that
       procurement records and files for purchases in excess of the small purchase threshold,
       ($100,000 for NSF), shall include the following at a minimum… (c) basis for award cost
       or price.

       AIP negotiated contracts valued at over $100,000 with the following entities under the
       NSF award:

                                                           Total Billed Claimed by
                                                               by       AIP on the
                                                          Subcontracto NSF Award
                                            Contract        r to AIP     Through
                                            Amount          Through      12/31/06
                 Subcontractor              per year        12/31/06
         NewsProNet (NPN)                   $ xxxxxxx        $ xxxxxxx   $ xxxxxxx
         Ivanhoe Broadcasting (Ivanhoe)      Xxxxxxx           Xxxxxxx     Xxxxxxx
         Univ. of Minnesota                  $350,000          $252,612    $174,979

       AIP requested, received, and accepted estimates from NPN, Ivanhoe Broadcasting, and
       the University of Minnesota for subcontract effort without evidence that the amounts


                                               11
proposed were reasonably priced. AIP stated that they had an independent estimate from
an outside company that showed that the NPN contract amount was reasonable.
However, the outside information was only a list of services which was not and could not
be reconciled to the NPN contract amount. AIP did not provide any information on how
they determined the Ivanhoe and the University of Minnesota subcontracts were
reasonably priced.

For example, we found that the June 11, 2003 agreement between AIP and NPN that was
included on the NSF award was more than double in price than a previous agreement
dated January 2003 for essentially the same amount of work. The January 2003
agreement had a price of $xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
represented the total amount of the costs to produce the DBIS episodes. NPN and AIP
were to share $xxxxxxxxxxxxxxxxxxxxxxxxxx                 xxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxx However, on June 11, 2003, AIP revised the agreement with NPN stating that
the total cost of the production was $xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
NPN was to produce 144 DBIS English speaking episodes and 72 Spanish speaking
episodes annually. AIP was to reimburse NPN annually for production costs estimated at
$xxxxxxxx, marketing costs estimated at $xxxxxxx and web page costs estimated at $
xxxxxxx. According to the agreement, xxxxx        xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx x
The new subcontract was included in the grant application and approved by NSF. The
new agreement did not address previous agreements or contracts between AIP and NPN
nor did it discuss a xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx

As noted above, the June 2003 agreement was twice the cost of the January 2003
agreement to produce the same number of DBIS episodes. The only difference between
the two agreements that we could determine was that the January 2003 agreement did not
provide for the 72 Spanish speaking episodes (valued at about $1,000 each by Ivanhoe)
and the June 2003 agreement did not provide for the 50/50 split of revenues from
subscriptions. In actual practice, the program income was split 50/50 between AIP and
NPN. Therefore, NPN should have been offering AIP the discounted price provided in
the January 2003 agreement for the June 2003 agreement that became part of the NSF
grant award. AIP officials stated that the June 2003 NPN agreement used the “market
rate” because of the change in the market. However, AIP did not provide documentation
that the market had change in the 5 months between the January 2003 and the June 2003
agreement. With such a price analysis, which did not reconcile to the NPN contract price
or a cost analysis of the NPN proposed costs, we could not determine if the June 2003
agreement represented a fair and reasonable price. We attempted to audit the records of
NPN to determine the reasonableness of the costs and the amount of program income
received. However, NPN and its successor, NPNI had gone out of business and the



                                       12
accounting records could not be located. AIP officials stated that they did not know
where the records were located. Attempts to locate former NPN officials were
unsuccessful.

For the Ivanhoe subcontract that replaced the NPN subcontract, AIP was to pay for xxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxx xxxxxxx xxxxxxx. AIP could not
demonstrate how it arrived at a reasonable price for the subcontract. Our audit of
Ivanhoe disclosed that records were not readily available to support the subcontract
amount. After several days of research, Ivanhoe was able to provide support for about
xxxxxx x of the subcontract price. Ivanhoe stated that it had a fixed price contract with
AIP and did not have to fully support the cost. In addition, AIP could not provide
support for the portion of the subcontract that provided Ivanhoe Broadcasting with 50
percent of the revenues generated by the sale of DBIS episodes to TV stations. xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx AIP told us it was based on current
market conditions. However, neither AIP nor Ivanhoe, provided documentation to
support that the Ivanhoe subcontract price or the revenue split were fair and reasonable.

The subcontract price awarded to the University of Minnesota was based on a detailed
estimate provided by the University. According to the subcontract, the contract price was
either $350,000 with overhead or $323,060, if the University waived the overhead costs.
Although requested, AIP could not provide evidence that a cost or price analysis of the
University’s estimate was performed. The final ceiling amount for the University
subcontract was never clarified. As a result, there was no assurance that a fair and
reasonable price was obtained for the subcontract.

In summary, without cost or pricing analysis to support the subcontract prices, AIP had
no assurance that subcontract prices were fair and reasonable. In fact, subcontract prices
for the NPN subcontract were significantly increased from the prior NPN agreement
without any explanation and the Ivanhoe and University of Minnesota subcontract prices
could not be fully supported.

(b)    Vague and Inadequate Subcontract Terms

The terms and type of contracts held between AIP and its three subcontractors, NPN,
Ivanhoe, and the University of Minnesota, could not be determined because the
subcontracts did not identify ceiling prices or type of subcontract. The subcontract
agreements did not include the type of contract (i.e. fixed or cost reimbursable), firm
ceiling prices, or the clauses required by federal regulations such as provisions for
termination (with the exception of the Ivanhoe contract), access to records and records
retention. As a result, there was no assurance that AIP and NSF interests were
adequately protected under these subcontract agreements.




                                       13
       According to Paragraph 48 of OMB Circular A-110, (2 CFR 215.48) contracts in excess
       of the small purchase threshold ($100,000 for NSF), shall have provisions or conditions
       that allow for termination. Paragraph 48 also provides that all subcontracts over
       $100,000 must have access to records for authorized representatives of the federal
       government. In addition Paragraph 48 (c) states that the type of procuring instrument
       used (fixed price, cost reimbursable, purchase orders, incentive contracts) shall be
       determined by the recipient. Furthermore, Appendix A of OMB Circular A-110 has
       required clauses that should be included in all subcontracts including Equal Employment
       Opportunity, Copeland “Anti–Kickback” Act, Contract Work Hours and Safety
       Standards, Rights to Inventions Made Under a Contract or Agreement, Clean Air Act,
       Byrd Anti-Lobbying Amendment, and Debarment and Suspension clauses.

       Our review disclosed that the three subcontracts did not specify the type of contract such
       as fixed or cost reimbursable, did not always contain firm contract amounts, and did not
       include certain clauses required by federal regulations. For example, each of the three
       subcontracts did not specify whether the subcontracts were fixed or cost reimbursable,
       nor did any of the subcontracts have firm ceiling prices. Wording such as “about”, or
       “estimated cost of”, were used without specifying a “not to exceed” amount. With the
       exception of the Ivanhoe subcontract termination provision, the three subcontracts did not
       contain clauses required by OMB Circular A-110, such as access to records, termination
       and records retention. Furthermore, clauses required by OMB Circular A-110 were not
       included in the subcontracts.

       The failure of AIP to ensure that subcontract documents described the type of contract,
       had firm contract ceilings and included all the subcontract clauses required by federal
       requirements provided no assurance that AIP and NSF interests were adequately
       protected. Also, if a record retention clause had been included in the NPN subcontract,
       the records might have been available for audit. Furthermore, had an adequate
       termination clause been included in the NPN subcontract, the termination of the NPN
       subcontract might have been conducted without legal involvement.

Recommendation No. 1:

We recommend that for all future subcontracts awarded by AIP under NSF awards, the NSF
Director for the Division of Institution and Award Support (DIAS) direct AIP to develop and
implement written policies and procedures to:

        1. Obtain and evaluate adequate cost and/ or pricing support for all subcontracts prior
           to award;

        2. Specify the type of contract, fixed or reimbursable, within all subcontracts and
           include specific contract ceiling amounts;

        3. Include all applicable clauses in subcontracts as required by federal requirements -
           including termination procedures and access to records.




                                              14
AIP Comments:
AIP states that it did obtain pricing information for the NPN subcontract prior to the award of the
NSF grant and submitted it to NSF. AIP also states that the pricing data shows that the NPN
prices were reasonable. AIP does not say anything about the Ivanhoe subcontract or the
University of Minnesota subcontract in regard to cost or pricing analysis. AIP states that the
reason the January 2003 subcontract xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx x. The June 2003 agreement is
at the market rate which was about twice as much as the January amounts. AIP stated that the
market had changed and NPN’s prices were what the market rate was. For both the Ivanhoe and
the University of Minnesota contract AIP refers to Appendices E, H, I, J, and K.

For the (b) section of the finding, AIP provides its procurement procedures that include the
Attachment from OMB Circular A-110 with the required clauses. AIP states that the NPN
agreement had a termination clause and AIP still had a problem with terminating NPN.

Auditor’s Response:
The Appendices E, H, I, J, and K do not constitute a price or cost analysis of the NPN,
University of Minnesota, or Ivanhoe subcontracts. Specifically, Appendix E refers to prices
received from Conus Communications which AIP represented as a price analysis for NPN.
These prices could not be reconciled to the prices in the NPN subcontract. It is also not a cost
analysis. Also, NPN did not offer any support for why the June 2003 agreement with NPN was
so much more than the January 2003 agreement for essentially the same services. Therefore, the
example remains in the final report. In addition, it is our belief that AIP did not perform an
adequate cost or price analysis of the three major subcontracts. AIP does not offer any pricing or
cost analysis data for either the Ivanhoe or the University of Minnesota subcontract. Therefore,
the finding remains the same.

In regard to the (b) portion of the finding, although we did receive a copy of AIP’s procurement
procedures during the audit, the procedures did not contain the appendix with the required
contract clauses. AIP did not contest that the necessary subcontracts clauses were missing.
Also, AIP did not offer a reason for not having ceiling subcontract prices or stating what type of
subcontract it was, cost reimbursable or fixed price. Therefore, the finding will remain the same.
This finding should not be closed until NSF has determined that the recommendation has been
adequately addressed and corrective actions have been satisfactorily implemented.

Finding No. 2: Inadequate Subcontractor Monitoring

AIP did not have adequate procedures to monitor its subcontractor activities in a timely manner.
AIP claimed subaward costs of $798,525 which represented xxxxxxx of the total costs claimed
through December 31, 2006. However, there were no policies or internal controls in place to
ensure that invoiced amounts were accurate, allocable, allowable, and adequately supported with
documentation in accordance with NSF and OMB grant requirements. This resulted in invoices
being paid by AIP for services and deliverables that were not provided and program income due
AIP not being paid. Specifically, AIP paid subcontractor Ivanhoe $ xxxxxxx for DBIS episodes
that were not delivered. Additionally, AIP was not paid $ xxxxxxx in program income owed to
it by subcontractor, NPN.



                                                15
OMB Circular A-110, Paragraph 47, (2 CFR 215.47) states that awardees are required to have a
contract administration system to ensure contractor conformance with the terms, conditions and
specifications of the contract. Paragraph 51 (a) requires recipients to manage and monitor each
project, program and subaward. OMB Circular A-133, Subpart D, Section 400 (d.3) requires and
awardee to “monitor the activities of subrecipients as necessary to ensure that federal awards are
used for authorized purposes in compliance with laws, regulations, and the provisions of
contracts or grant agreements and that performance goals are achieved. In addition, OMB
Circular A-110, Paragraph 53b states that grantees and sub-grantees must maintain records
associated with the government funded project for three years after the final payment on the
award. Furthermore, Paragraph 24, states that awardees are required to account for program
income related to projects financed in whole or in part with federal funds. Program income
should be used to further the advancement of the funded project.

AIP did not have policies or internal controls in place to ensure the amounts on the invoices were
accurate, allocable, allowable, and properly supported per NSF and OMB grant requirements.
With the exception of the monthly subscription receipt reports provided by NPN and Ivanhoe to
AIP, the subcontractors were not required to submit any supporting documentation with the
invoices. In addition, with the exception of the internal audit of NPN discussed below, there was
no evidence that indicated that AIP conducted financial monitoring at subcontractor locations.
This situation occurred because AIP lacked adequate policies and procedures for a risk-based
system to monitor and report its subcontract costs. As a result, the following two examples
consisting of untimely monitoring and payments made but deliverables not provided were noted:

   (a) Untimely Monitoring of NPN Subcontract

   AIP did not perform timely monitoring of the NPN subcontract. NPN had performed the
   DBIS work since 1999 prior to the NSF award. However, AIP’s internal auditor did not
   perform a review of the reliability of NPN’s transactions relating to the DBIS program until
   late 2004 early 2005 completing the review in February 2005, just before the subcontract was
   terminated by AIP. Although the internal audit found that cash transactions for grant related
   income were not adequately supported and that contracts with subscribing stations were not
   always signed, before the internal audit could be issued as a final report, AIP had taken
   action to terminate the subcontract. As a result, AIP issued a replacement subcontract to
   Ivanhoe which was signed on June 10, 2005 but was made effective as of March 17, 2005 to
   cover the 3-month interim period where Ivanhoe had performed work without having a
   formal contract. Had the internal audit or some other form of monitoring been performed
   earlier, action could have been taken to resolve the issues disclosed.

   Also, as mentioned, AIP terminated the subcontract with NPN in June 2005 and reached a
   court ordered settlement of xxxxx with NPNI a successor entity. The xxxxxxx represented
   net unpaid program income accumulated prior to the termination date. The outstanding
   program income due AIP was reduced to xxxxxxx through payments by NPNI until it went
   out of business and ceased making payments. It was determined by AIP that the outstanding
   balance could not be recovered. Had monitoring been actively pursued by AIP, the program




                                               16
   income payments may not have become delinquent and the xxxxxxx would not be currently
   outstanding. Because AIP did not recover the xxxxxxx we consider it a questioned cost.

   In addition, accounting records supporting costs incurred under the NPN subcontract were
   not available for audit. As discussed in Finding No. 1, AIP failed to include a record
   retention clause in its subcontract. Had AIP been performing subcontract monitoring the
   records may have been reviewed or obtained by AIP and been available for audit.

   (b) Lack of Monitoring of Ivanhoe Contract

   We found that Ivanhoe billed AIP xxxxxxx for Spanish speaking episodes that had not been
   delivered. Ivanhoe officials stated that they were billing in accordance with the terms of the
   subcontract, which allowed for xxxxxxx per Spanish speaking episode at the rate of two per
   month. However, we found that IBN had billed for 40 Spanish speaking episodes but had
   only completed and delivered 15 episodes as of February 2007. IBN officials stated that the
   episodes were in production but were waiting for AIP to select Spanish speaking experts for
   each episode. We consider that the xxxxxxx AIP paid for incomplete and undelivered
   episodes as a questioned cost.

   AIP’s failure to monitor and review subcontractor’s costs in a timely manner reduced AIP’s
   ability to (1) efficiently and effectively manage and monitor NSF-funded expenditures, (2)
   determine proper payment of program income, and (3) monitor the activities of its
   subcontractors. Inadequate subcontractor monitoring also resulted in $77,658 of questioned
   subcontract costs.

Recommendation No. 2:

We recommend that the NSF Director of DIAS require AIP, for this and future NSF awards, to
establish and implement an adequate program that monitors subcontractors' adherence to
subcontract provisions and the accumulation of program income.

AIP Comments:
AIP stated that it did have a subcontract monitoring program that it provided to NSF. They
believed that they did an adequate job of monitoring the subcontractor’s performance. AIP also
states it was aware that NPN was having problems and it was working with them. Also, they
state that Ivanhoe has, since the audit, provided the 25 Spanish speaking DBIS episodes.

Auditor’s Response:
AIP’s subcontractor monitoring program was not effective. NPN did not pay the grant related
income to AIP as required. Not until it was too late, AIP sent its internal auditor to review
NPN’s accounting for subscription sales. Shortly thereafter, AIP started legal proceedings to
terminate NPN. Also, AIP does not explain why Ivanhoe was paid even though it had not
delivered the 25 Spanish speaking DBIS episodes. We believe that this condition resulted from
inadequate monitoring of these two subcontractors. Therefore, the finding will remain the same.
This finding should not be closed until NSF has determined that the recommendation has been
adequately addressed and corrective actions have been satisfactorily implemented.



                                              17
This page is redacted in its entirety




                 18
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx   xxxxxxx
xxxxxxx


xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx


xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx                 xxxxxxx   xxxxxxx
xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx

xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxxx xxxxxx

Foxx & Company


Cincinnati, Ohio
April 21, 2008




                                              19
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                                      SCHEDULE A-1


                        AMERICAN INSTITUTE OF PHYSCIS
                           COLLEGE PARK, MARYLAND
                              INTERIM AUDIT OF
               NATIONAL SCIENCE FOUNDATION AWARD NO. ESI-0307862
                          SCHEDULE OF AWARD COSTS
                      OCTOBER 1, 2003, TO DECEMBER 31, 2006


                                                                                                  Schedule B
                                               Approved           Claimed        Questioned          Note
               Cost Category                   Budget (A)         Costs (B)        Costs          Reference

    Total Senior Personnel                       Xxxxxxx            Xxxxxxx      $            -
    Total other professional                     Xxxxxxx            Xxxxxxx                   -
    Fringe Benefits                              Xxxxxxx            Xxxxxxx                   -
    Other Direct Costs:
    Consultant services                          Xxxxxxx            Xxxxxxx
    Sub awards/subcontracts                      Xxxxxxx            Xxxxxxx            77,658      B-1&B-2
    Other                                        Xxxxxxx            Xxxxxxx
        Total direct costs                     $ 2,348,603          $2,034,850   $     77,658

 Cost Incurred in Excess of Claimed Costs                     -     $1,160,879                -      B-3
 Cost sharing                                         $ 234,859      $222,807                 -



(A) Indirect costs were not awarded for this award.

(B) The total costs claimed agree with the total expenditures reported on the FCTR as of December 31, 2006. The
    claimed costs reported above are taken directly from the awardee’s books of accounts. In addition, AIP’s
    accounting records included a significant amount of additional expenditures on this project that were not
    claimed. See Note B-3.




                    The accompanying notes are an integral part of the financial schedules

                                                          20
                                                                                    SCHEDULE B-1


                     AMERICAN INSTITUTE OF PHYSICS
                        COLLEGE PARK, MARYLAND
            NATIONAL SCIENCE FOUNDATION AWARD NO. ESI-0307862
                     SCHEDULE OF QUESTIONED COSTS
                   OCTOBER 1, 2003 to DECEMBER 31, 2006

Note B-1: The xxxxxxx questioned represents billings for Spanish speaking DBIS episodes
billed by Ivanhoe Broadcasting that had not been delivered to AIP at the time of our audit.
According to the subcontract between Ivanhoe and AIP, Ivanhoe was to bill xxxxxx per Spanish
speaking episode at the rate of two per month. At the time of our audit, Ivanhoe had billed for 40
episodes that were in various stages of production but not yet finished. According to Ivanhoe
officials the episodes were not completed because Ivanhoe was awaiting AIP to find Spanish
speaking experts that could discuss the subject matter of the particular DBIS episode. Because
the episodes had not been delivered at the time of the audit, we have questioned the xxxxxxx
billed for the 25 episodes.

Note B-2: The xxxxxxx questioned represents the remaining amount owed AIP from the final
settlement with NewsProNet (NPN). In November 2006, AIP was notified that the successor to
NPN, NPNI was ceasing monthly payments to AIP under the final settlement. AIP provided us
with documentation stating that the assets of NPN and its successor NPNI had been purchased
and the owners were not going to honor the settlement agreement. AIP officials stated that they
were not going to take any additional legal action to recover the remaining balance plus interest
of approximately xxxxxxx on the settlement. Because the settlement amount consisted of
royalties (grant related income) which should have been used to further the DBIS program, we
have questioned the xxxxxxx.

Note B-3: Our audit disclosed that AIP had incurred additional expenditures over and above
the amount claimed to NSF for the DBIS project by about $1.1 million as of December 31, 2006.
Specifically, AIP’s accounting records indicated that AIP had expended $4,785,778 on this
project while the NSF funding and the actual cost share as claimed to NSF totaled $2,257,657.
Although this represented an over expenditure of $2,528,121, there were certain amounts in the
over expenditure which could not be accepted. Specifically, included in the over expenditure was
xxxxxxx of overhead costs which were excluded from this project by the NSF award, and
xxxxxxx of “in kind” expenditures from the NPN subcontract which could not be supported by
AIP. Accordingly, there was a net over expenditure of $1,160,879 ($2,528,121-$ xxxxxxx -
xxxxxxx). Because we audited the total expenditures shown on AIP’s records, the $ xxxxxxx
net over expenditures could be used by NSF to offset the questioned costs discussed in Note B-1
and B-2 if the NSF program officials determine that the additional expenditures are valid for
award purposes.




                The accompanying notes are an integral part of the financial schedules

                                                 21
                                                                                    Schedule C-1

             AMERICAN INSTITUTE OF PHYSICS
                COLLEGE PARK, MARYLAND
                   INTERIM AUDIT OF
    NATIONAL SCIENCE FOUNDATION AWARD NO. ESI-0307862
 SUMMARY SCHEDULES OF AWARDS AUDITED AND AUDIT RESULTS
           OCTOBER 1, 2003 to DECEMBER 31, 2006

Summary of Award Audited

        Award Number                      Type of Award                      Award Description
                                                                      Discoveries and Breakthroughs
         ESI-0307862                           Grant                  Inside Science: Science TV
                                                                      News That Matters (DBIS)

Summary of Questioned and Unsupported Costs by Award

    NSF Award                                                                          Unsupported
      Number             Award Budget        Claimed Costs        Questioned Costs        Costs
ESI-0307862                  $2,348,603           $2,034,850               $77,658                    -
Cost share                      234,859              222,807                     -                    -
Total                        $2,583,462           $2,257,657               $77,658                    -

Summary of Questioned Cost by Explanation

                                                                   Internal
                Condition                      Questioned          Control
                                              Cost Amount         Weaknesses         Non-Compliance
Unfinished DBIS episodes                         Xxxxxxx               -               Xxxxxxx
Grant related income not paid to AIP             Xxxxxxx               -               Xxxxxxx
Total Questioned Costs                                 $77,658         -                $77,658

Summary of Internal Control Weaknesses and Non-Compliance Issues

                                                        Significant
                                       Internal         Deficiency,    Amount of        Amount of
                                      Control or         Material      Questioned        Claimed/
                                         Non-           Weakness,        Cost         Incurred Costs
           Condition                 Compliance          or Other       Effected         Effected
Inadequate Procurement Practices   Internal Control                        $0            $798,525
for Awarding Subcontracts          and Non-             Significant
                                   compliance           deficiency
Inadequate Subcontractor           Internal Control     Significant     $77,658          $798,525
Monitoring                         and Non-             deficiency
                                   compliance
AIP Not Meeting the                Non-                    N/A             $0               $0
Subscription Sales Milestones      compliance


             The accompanying notes are an integral part of the financial schedules

                                                22
                          AMERICAN INSTITUTE OF PHYSICS
                                 INTERIM AUDIT OF
                      NATIONAL SCIENCE FOUNDATION AWARD NO. ESI-0307862
                            NOTES TO FINANCIAL SCHEDULES
                           OCTOBER 1, 2003 to DECEMBER 31, 2006

Note 1:        Summary of Significant Accounting Policies

          Accounting Basis

          The accompanying financial schedules have been prepared in conformity with National
          Science Foundation (NSF) instructions which are based on a comprehensive basis of
          accounting other than generally accepted accounting principles. Schedule A has been
          prepared by AIP from the Federal Cash Transaction Report submitted to NSF and
          AIP’s accounting records. The basis of accounting utilized in preparation of these
          reports differs from generally accepted accounting principles. The following
          information summarizes these differences:

          A.     Equity
                 Under the terms of the award, all funds not expended according to the award
                 agreement and budget at the end of the award period are to be returned to NSF.
                 Therefore, the awardee does not maintain any equity in the award and any excess
                 cash received from NSF over final expenditures is due back to NSF.

          B.     Equipment
                 Equipment is charged to expense in the period during which it is purchased
                 instead of being recognized as an asset and depreciated over its useful life. As a
                 result, the expenses reflected in the Schedule of Award Costs include the cost of
                 equipment purchased during the period rather than a provision for depreciation.

                 Except for awards with nonstandard terms and conditions, title to equipment
                 under NSF awards vests in the recipient, for use in the project or program for
                 which it was acquired, as long as it is needed. The recipient may not encumber
                 the property without approval of the federal awarding agency, but may use the
                 equipment for its other federally sponsored activities, when it is no longer needed
                 for the original project.

          C.     Inventory
                 Minor materials and supplies are charged to expense during the period of
                 purchase. As a result, no inventory is recognized for these items in the financial
                 schedules.

          D.     Federal Income Tax
                 AIP has no Federal income tax liability as a nonprofit organization.
                  The accompanying notes are an integral part of the financial schedules

                                                   23
                            AMERICAN INSTITUTE OF PHYSICS
                                   INTERIM AUDIT OF
                        NATIONAL SCIENCE FOUNDATION AWARD NO. ESI-0307862
                              NOTES TO FINANCIAL SCHEDULES
                             OCTOBER 1, 2003 to DECEMBER 31, 2006


  Note 2: NSF Cost Sharing and Matching

  The following represents the cost share requirements and actual cost share as of December 31,
  2006:

                                                                                 Actual          Actual
                                 Cost       Actual Cost       Unsupported       Supported      Cost Share
                                Share         Share               Cost            Cost        Over/(Under)
                               Required      Claimed             Share            Share         Required

Award No. ESI-0307862      $      234,000   $   222,807   $                 -   $   222,807   $    (11,193)

Total                      $      234,000   $   222,807   $                 -   $   222,807   $    (11,193)



  Note 3: Indirect Cost

  NSF did not award indirect costs for Award No. ESI-0307862.




                 The accompanying notes are an integral part of the financial schedules

                                                  24
       ATTACHMENT A

AWARDEE’S COMMENTS TO REPORT
     Summarized by Auditor
This page intentionally left blank.




                25
                            SUMMARY OF AIP’S RESPONSE


The auditor has reviewed the comments submitted by AIP in detail and will address their
proposed changes to the draft report, their comments and the appendices to their comments. The
auditor has addressed the comments as the comments relate to the findings, the
recommendations, the questioned costs and other parts of the draft report. Finally, each
appendix is discussed.

   A.     Finding No. 1 – Inadequate Procurement Practices for Awarding Subcontracts

          AIP contends it obtained cost and pricing data for the NPN subcontract. The cost and
          pricing data that AIP supplied as Appendix E was a two page email from a Company
          called Conus Communications. The email only quoted hourly rates for editing and
          studio camera, half and full day costs for two person camera crew, encoding and
          tracking, etc. There was no indication of how this information related to the costs in
          the NPN subcontract. Even though AIP had dealt with NPN for several years before
          the NSF award, AIP did not obtain or analyze cost data from NPN. The other
          Appendices mentioned, H and I do not discuss any cost or price data. Nothing is
          offered by AIP to support how the contract prices for Ivanhoe or the University of
          Minnesota were arrived at.

          In summary, even though AIP may have procurement procedures, AIP did not obtain
          adequate cost or pricing data for the subcontracts or did not put in the required
          contract clauses.

          For the NPN example, the Appendices K, M, and J do not explain how the NPN price
          was arrived at or why the January contract amount was almost half of the June 2003
          contract amount that became part of the NSF award. Appendix J, the negotiation
          memo that was never provided to the auditor during the audit, states that NPN agreed
          to produce the DBIS episodes xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
          xxxxxxx. The January 2003 agreement doesn’t mention the xxxxxxxxxxxxxx.
          Furthermore, 5 months later the agreement between AIP and NSF was increase to
          nearly xxxxxxxxxxxxxx xxxxxxxxxxxxxx xxxxxxxxxxxxxx xxxxxxxxxxxxxx.
          xxxxxxxxxxxxxx         xxxxxxxxxxxxxx        xxxxxxxxxxxxxx         xxxxxxxxxxxxxx
          xxxxxxxxxxxxxx xxxxxxxxxxxxxx x. The negotiation memo does not explain how
          the January 2003 agreement with NPN that resulted in a price of xxxxxxxx per year
          which consisted of xxxxxxxxx to produce the DBIS episodes and xxxxxxxxx for
          marketing costs relates to the xxxxxxxxx to produce the DBIS episodes and xxxxxxx
          in marketing costs for essentially the same amount of work in the June 2003
          agreement. The only difference was the xx Spanish speaking DBIS videos per month
          which Ivanhoe produced several years later for xxxxxxx a piece. The negotiation
          agreement only states that the June 2003 agreement was at the market rate. No
          explanation is provided to support how the contract amount increased so dramatically
          in only a few months. Because a cost analysis was not performed and NPN’s records




                                              26
were not available there is no documentation available to determine what NPN’s
actual costs were or if the costs were reasonable.

For the University of Minnesota subcontract, AIP only provided the cost information
provided by the University. Documentation supporting that AIP performed a cost
analysis of the amounts was not provided during fieldwork or with AIP’s response to
the draft report.

For the Ivanhoe subcontract, no documentation was provided to support that a cost
analysis was performed or the subcontract price was reasonable. AIP’s only
comment is that the Ivanhoe subcontract is a fixed price contract. As discussed in the
audit report the auditor’s review of Ivanhoe’s records disclosed that Ivanhoe could
not support the contract price.


Finding 1 (b)Vague and Inadequate Contract terms

In regard to the lack of contract clauses, AIP only refers to its procurement
procedures at Appendix K. The procurement procedures that were provided with the
comments to the draft have an added attachment that covers the required clauses.
However, the procurement procedures that were provided to the auditor during the
audit fieldwork did not have this attachment. AIP addresses the termination provision
of the contracts, not the other clauses. The draft report acknowledged that the
Ivanhoe subcontract had a termination clause but the NPN agreement provided to the
auditor during the audit and the one submitted as Appendix M does not have a
termination clause. Also, the NPN agreement does not refer to previous agreements
that might have had a termination clause. Therefore, even though AIP states that the
NPN subcontract had a termination clause, it doesn’t. AIP did not address the
University of Minnesota subcontract.

In summary, the subcontracts did not have the clauses required by federal regulations,
nor were the subcontracts clear on what type of subcontracts, fixed or cost
reimbursable. Also, the subcontracts did not have firm ceiling prices.

Finding No. 2- Inadequate Monitoring of subcontracts

AIP disagrees that they didn’t have subcontract monitoring procedures for
subcontracts. At Appendix F, AIP has provided their subcontractor monitoring
procedures. AIP’s subrecipant monitoring plan appears to have come from the
federal regulations with AIP’s name inserted. AIP stated that they were aware of
NPN’s problems and were working with them. However, during the audit, AIP
officials told the auditor that NPN was terminated because the President left, not
because they were having trouble performing. Had AIP performed adequate
monitoring of NPN it might not have been necessary to initiate legal action against
NPN to terminate the subcontract and get an agreement for NPN’s successor to pay
AIP subscription revenue owed. AIP did not provide the auditor with documentation



                                    27
   during the audit fieldwork which showed that AIP was working with NPN nor did
   AIP provide any with its comments.

   In regard to the Spanish language DBIS episodes that Ivanhoe had billed for but not
   delivered at the time of our audit, AIP stated that the Spanish episodes had been
   delivered. However, AIP did not say that Ivanhoe has stopped billing on a monthly
   basis for Spanish language episodes, even though episodes might not be delivered.
   Accordingly, Ivanhoe could still be billing for episodes before actually delivering the
   Spanish speaking episodes. Also, if AIP was adequately monitoring the subcontract
   they should not have let Ivanhoe bill when episodes had not been delivered.

   In summary, even though AIP had subcontract monitoring procedures, NPN still had
   to be sued to obtain monies owed AIP and Ivanhoe still billed for episodes not
   delivered

   Finding No. 3-Milestones

   AIP has provided much information about the milestones. AIP has used all
   subscribers in the number of subscribers for FY 2006, both paying and non paying.
   Foxx has used only paying subscribers. Our position has to do with the DBIS
   program becoming self sufficient. xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxx
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxxx
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxx xx x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx              x
   xxxxxxxxx xxx.

Following is a discussion of each of the Appendices to AIP’s comments:




                                       28
Appendix A-Project Summary and Proposal to NSF

This document shows that the award had 7 other objectives besides self sufficiency of
the DBIS program at the end of the NSF grant period. AIP contends that the draft
report only focused on one of the 8 objectives of the award, building a self sufficiency
model for the DBIS program. AIP believes that the other 7 objectives are equally or
more important. The auditor did focus on the self sufficiency objective because it
tied into the measurable goals of the award. The background of the audit report has
been revised to include all 8 objectives. The finding on meeting milestones has been
revised to only discuss the number of subscription paying stations and the amount of
revenue generated.

Appendix B-Response to NSF grant application reviewer

This document provides questions asked by NSF prior to the award and AIP’s
responses. xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxx x
xxxxxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxxxxxxxx xxxxxxxxx xxxxxxxx                x
xxxxxxxxx xxxxxxxxx xxx. AIP still proposes self sufficiency and subscription sales
amounts in both the original and revised milestones (See Appendix G)

Appendix C-AIP and Ivanhoe Agreement

The subcontract document supports that the Ivanhoe subagreement had an end date
and a termination clause. However it also shows that the subcontract did not have the
clauses required by federal regulations or whether the contract is fixed price or cost
reimbursable. It also doesn’t address a fixed ceiling contract price.

Appendix D-University of Minnesota agreement

This document represents the University of Minnesota subcontract. The subcontract
does not have not a firm end date but states that the contract period is August 2006 to
the end of project. The agreement does show that the required clauses are missing
and that there is no termination agreement. The subcontract does not state whether it
is cost reimbursable or fixed price.

Appendix E-Estimate for Subcontract – CONUS Communications

According to AIP this document represents how AIP determined that the NPN
subcontract price was reasonable. It is just a listing of prices. AIP claims that this
document which AIP states was submitted with its grant application to NSF supports
that a price/cost analysis was performed of the NPN subcontract. It cannot be
reconciled to the NPN subcontract. It doesn’t qualify as a price analysis and it is
surely not a cost analysis.




                                    29
Appendix F-AIP’s Subrecipient Monitoring Plan

AIP provided a document that represents their subrecipient monitoring plan. The
final report will mention AIP submitted a plan. However, the fact remains that NPN
had to be sued to obtain the grant related income and Ivanhoe still billed for Spanish
DBIS episodes that were not delivered. If the plan was in effect during the audit
period, it does not appear to very effective.

Appendix G-AIP’s request to change the milestones

This document shows all of the milestones involved with the award. Because of the
confusion between number of contributing organizations, subscribing stations, and
the non NSF/ non AIP funding, we have revised the finding on milestones to deal
with only subscription revenue. We have used the subscription revenue milestones
included in this letter to NSF for both the original and revised milestones. See
Finding No. 3 of the revised draft report.

Appendix H-Production and Marketing Company Backgrounds

AIP provided these documents to show how Ivanhoe was selected to replace NPN.
It shows how AIP narrowed their search for replacement for Ivanhoe. The report
findings does not have to do with the selection of Ivanhoe but have to do with the
reasonableness of the costs, no cost or price analysis and the lack of required clauses.

Appendix I-Subrecipient Monitoring Plan

This document represents AIP’s monitoring plan. However, it appears to be just the
regulations on subrecipient monitoring. The auditor does not believe this was
provided during the field work. It does not explain why AIP waited so long to send
the internal auditor out to NPN or let Ivanhoe bill for episodes not delivered.

Appendix J-Negotiation Summary between AIP and NPN

AIP has provided this document to show that negotiations took place before the NPN
contract was awarded. The document is undated and the auditor was not provided the
document during the audit field work. Whenever the auditor asked about how NPN
was selected AIP stated that the subcontract was approved as part of the grant award.
AIP also said there was no other company that could do the work. The document does
not adequately explain how the NPN contract price was arrived at. There is no
evidence of a cost analysis or even an adequate price analysis. The document just
says that another firm would produce the DBIS episodes for xxxxxx a piece without
showing how the xxxxxx amount was calculated.




                                    30
Appendix K-Price estimate for a large study

This document is an email that has a price for a study from an outside company. It
mentions xxxxxx and a xxxxxx contingency. It was sent to the President of NPN.
However, we are not sure how it relates to the prices of the three subcontracts.

Appendix L-AIP’s Purchasing Procedures

This document represents AIP’s purchasing procedures. The auditor was provided
these procedures during the audit. However, there was not an Attachment with the
required subcontract clauses on the copy the auditor received during the audit.
However, as discussed in the draft report, AIP did not perform adequate cost or price
analysis for the three large subcontracts nor did AIP put in the required clauses in the
awarded subcontracts.

Appendix M-AIP and NPN June 2003 Agreement

This appendix consists of the agreement between AIP and NPN which outlines what
was to be performed by each party. A review of the agreement shows that there is not
a termination clause or any other of the clauses required federal grant regulations
included in the agreement.

Appendix N-AIP and Ivanhoe Agreement June 6, 2005

This is a memorandum of understanding between AIP and Ivanhoe that was
apparently arrived at two days before the Appendix C agreement. The last two pages,
the sub agreement budget, were not included on the agreement that was provided to
the auditor during fieldwork. Also, these two budget pages are in a different font than
the rest of the agreement. As we discuss in the report, Ivanhoe could not support the
cost of producing the DBIS episodes nor did they have anything like these budget
sheets to provide us when the auditor performed the audit of Ivanhoe’s books and
records.

Appendix O-Questions generated by NSF prior to the award

This document is an email from the NSF program personnel asking a number of
questions about AIP’s proposal and it includes AIP’s responses to the NSF questions.
AIP did not provide the attachments or NSF’s response. The auditor can only assume
that the purpose of this document is to show that AIP did inform NSF about the NPN
subcontract and provide the CONUS memo on prices that is supposed to represent a
price analysis supporting the NPN contract price. It is interesting to note that NSF
asked what type of contract the NPN agreement was and NPN replied fixed price.
But AIP never put that in the agreement or any of its agreements. Just because NSF
awarded the grant to AIP and the award included the NPN subcontract does not
change the report comments about the NPN subcontract. The subcontract did not
state the type of contract, did not have the required clauses, an adequate cost or price



                                    31
analysis was not performed, and the price analysis could not be reconciled to the NPN
contract.

Appendix P-Email from NSF Stating that the Changed Milestones did not require a
grant amendment

This memo is from NSF stating that a grant amendment is not necessary for a change
in the milestones. This was not provided to the auditor during field work. It is
actually dated after the audit exit conference. It is interesting that a reduction in the
milestones did not require a grant amendment. The final report includes a statement
about the NSF memo.

Attachment Q-Email to NSF supporting the selection of Ivanhoe to replace NPN

AIP provided this memo to show that they did inform NSF how they selected
Ivanhoe.

Attachment R-Letters to NSF with Results of DBIS project for 2004 and 2006

These letters to NSF are updates to show AIP’s progress toward the milestones and
justification for the 2007 award amount. The number of stations for 2006 does not
reconcile to the number of stations at the conclusion of the audit fieldwork. The
auditor obtained information from Ivanhoe and AIP that showed only xxxx xx
while the memo to NSF shows xxxx xx. Also, the dollar amounts cannot be
verified. Because of this, we have revised the third finding to deal with paid
subscriptions not any of the other milestones. (It is curious that NSF decided that a
grant amendment was not necessary for the changed milestones but that is what AIP
focused on when asking for the FY2007 funding)

Attachment S-Summary of DBIS project as of April 2008

It appears that this information was put together as a result of the audit report to show
where AIP stood on the NSF funded project. It also may be used by AIP to get
additional funding from NSF which it does mention. Also, it does state that during
2007 subscription revenue was xxxx            xx which is not even xx x of the 2007
milestone for subscription revenue. Because the 2007 amount is outside the scope of
the audit, it does not pertain to the final audit report.

Attachment T-2005 and 2006 Subscribers

This document is apparently a presentation that lists the DBIS subscribers for 2005
and 2006. It does not reconcile to the numbers was provided during the fieldwork
from AIP and Ivanhoe for 2006 during our audit. Our work papers only show xx total
subscribers for 2006. In any event, we have revised Finding No. 3 to focus on paid
subscriptions and the amounts which were received for the project.




                                     32
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
            oig@nsf.gov

             Telephone
           703-292-7100

             Toll-free
          1-800-428-2189

                Fax
           703-292-9158

                  Mail
      Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
          Arlington, VA 22230
